                                   OFFICE OF INSPECTOR GENERAL
                                     OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

During a review of SBIR grant recipients, we determined that the subject' had submitted an abstract
for an SBIR grant to NSF which was similar to one he had submitted to NIH. We examined the
proposals for both grants to determine whether the research or reports were duplicative. We
determined that the subject had disclosed the existence of the NIH proposal in his NSF proposal.
Based on this disclosure, we concluded that there was no improper activity by the subject regarding
the submission of proposals to NSF and NIH.

Accordingly this case is closed.
